HHS/OIG, Audit - "Emergency Response to Hurricanes Katrina and Rita:
Audit of Program Support Centers Award Process for a Contract With the Nevada
Hospital Association," (A-03-06-00509)
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Review
of Selected Physician Practices Procedures for Tracking Drug Administration
Costs and Ability To Purchase Cancer Drugs at or Below Medicare Reimbursement
Rates," (A-09-05-00066)
July 27, 2007
Complete
Text of Report is available in PDF format (1.03 mb). Copies can also be obtained by
contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
The report summarizes the results of our reviews of 12
selected physician practices in the specialties of hematology,
hematology/oncology, and medical oncology.
Eleven of the twelve practices reviewed did not have
procedures to track, by procedure code, the costs associated with administering
drugs to cancer patients.  Without procedures for tracking these costs by
procedure code, the 11 practices could not determine whether Medicare
reimbursement for each code was sufficient to cover the costs of providing the
services.  Nine of the twelve practices could generally purchase drugs related
to 15 selected payment codes for the treatment of cancer patients at or below
the reimbursement rates established by the Medicare Prescription Drug,
Improvement, and Modernization Act.  The remaining three practices paid prices
above the reimbursement rates for at least half of the payment codes related to
the drugs purchased.
We recommended
that CMS consider the results of the review in any future evaluations of
Medicare Part B reimbursement of costs associated with the administration and
purchase of drugs for the treatment of cancer patients.  CMS agreed with the
recommendation.